BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Reply Brief in 20-1009, David Shinn, et al. v.
David Martinez Ramirez and Barry Lee Jones, was
sent via Next Day Service to the U.S. Supreme Court,
and 3 copies were sent via Next Day and e-mail service
to the following parties listed below, this 16th day of
April 2021:
Timothy M. Gabrielsen
Federal Public Defender's Office
407 W. Congress, Ste. 501
Tucson, AZ 85701
(520) 879-7614
tim_gabrielsen@fd.org

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Mark Brnovich
Attorney General
Joseph A. Kanefield
Chief Deputy and Chief of Staff
Brunn W. Roysden III
Solicitor General
Lacey Stover Gard
Chief Counsel
Counsel of Record
Laura P. Chiasson
Ginger Jarvis
William Scott Simon
Jeffrey L. Sparks
Assistant Attorneys General
Office of the Arizona Attorney General
400 W. Congress, Bldg. S-315
Tucson, AZ 85701-1367
(520) 628-6620
lacey. gard@azag.gov
Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 16, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public

'

[seal]

JOHN 0. Gi\LLAGHE:.Fi
riotary Public, Slate of Otw'l

My Commission Expires
I:
:ary 14, 2023
I

i

